OFFICE OF INSPECTOR GENERAL


AUDIT OF
USAID/NICARAGUA’S
EDUCATION ACTIVITIES
AUDIT REPORT NO. 1-524-09-002-P
NOVEMBER 19, 2008




SAN SALVADOR, EL SALVADOR
                  Office of Inspector General




November 19, 2008


MEMORANDUM

TO:                  USAID/Nicaragua Mission Director, Alexander Dickie IV

FROM:                Regional Inspector General/San Salvador, Timothy E. Cox /s/

SUBJECT:             Audit of USAID/Nicaragua’s Education Activities (Audit Report No. 1-524-09-
                     002)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
carefully considered USAID/Nicaragua’s comments on the draft report and we have included
the mission’s comments in appendix II.

The report includes six recommendations for mission action. Management decisions for the
recommendations can be recorded when USAID/Nicaragua and we have agreed on a plan of
action with target dates for implementing each recommendation.

We appreciate the assistance of your staff during the audit, and we hope that this report will
help the mission manage its education program.




U.S. Agency for International Development
Regional Inspector General/San Salvador
Unit 3110; APO, AA 34023
Tel: (503) 2501-2999 Fax (503) 2228-5459
CONTENTS
Summary of Results….….…………………………………………………………………...1

Background………………...………………………………………………………………….3

Audit Objectives……………..………………………………………………………………….7

Audit Findings… ………………….………………………………………………………..…8

Did USAID/Nicaragua’s education activities achieve
planned results? … …………………………………………………………...……………….8

     A Strategy for Evaluating the
     Effectiveness of the Active Learning
     Model and New Curriculum is Needed………….……………...……………….…11

     Opportunities Exist to Widen the Reform
     Agenda at the Ministry of Education……….…………………………...…….……13

     Excelencia Schools Lack Sufficient Materials
     to Effectively Implement the Active Teaching
     and Learning Methodology…………………………….…………………….………14

     The Alliances Project Should Focus on
     Significant, Sustainable Results… ………….……………………………………...16

Did USAID/Nicaragua’s reporting on its education
activities provide stakeholders with complete and
accurate information on the progress of the activities
and results achieved? …..…………………………………………………..………………..18

     Performance Management Plan Should Be Updated…. …...……………………18

     Data Reporting Needs to Be Strengthened….………….……………………….…20

Appendix I – Scope and Methodology……………………..….………….………...……23

Appendix II – Management Comments……………………….……………………….....25
SUMMARY OF RESULTS
Despite recent gains in such educational indicators as student enrollment and
completion rates, Nicaragua’s primary education system still faces serious challenges
with respect to access and quality of education. Net primary enrollment rates are near
90 percent but many public primary schools lack the means to provide students with the
basic cognitive skills they need to succeed. USAID has provided sustained assistance
for basic education in Nicaragua since the early 1990s and now assists about 27 percent
of all public primary schools in Nicaragua (pages 3-7).

As part of its FY 2008 annual plan, the Regional Inspector General/San Salvador
(RIG/San Salvador) conducted an audit of USAID/Nicaragua’s basic education activities
designed to answer the following questions (page 7):

•   Did USAID/Nicaragua’s education activities achieve planned results?

•   Did USAID/Nicaragua’s reporting on its education activities provide stakeholders with
    complete and accurate information on the progress of the activities and the results
    achieved?

With respect to the first question, it was difficult to determine whether
USAID/Nicaragua’s education activities achieved planned results. Performance targets
were not established for 7 of the 16 indicators in its performance management plan
(PMP), and actual results were not obtained or reported on for 9 of the 16 indicators.
Yet, for indicators for which information was available and USAID-financed activities
significantly influenced the reported results, performance targets were generally met.
USAID/Nicaragua’s basic education activities have achieved substantial scale and the
Minister of Education recently announced that a USAID-supported active teaching and
learning model and a USAID-financed primary curriculum will be implemented
nationwide over the next 3 years (page 8).

Some opportunities exist for strengthening the program’s results and impact.
Specifically, a strategy is needed to evaluate the impact of the active teaching and
learning model and the primary curriculum (page 11), the reform agenda within the
Ministry of Education needs to be expanded (page 13), schools lack sufficient materials
to implement the active teaching and learning model (page 14), and some private sector
alliances may not lead to significant, sustainable results (page 16).

With respect to the second question, USAID/Nicaragua’s reporting on the program was
balanced but not always accurate (page 18). USAID/Nicaragua needs to update its
PMP (page 18) and needs to develop and implement a system to reasonably ensure the
accuracy of reported results (page 20).

The report recommends that USAID/Nicaragua:

•   Develop a plan for testing the impact of the active teaching and learning model and
    the new curriculum (page 12)




                                                                                       1
•   Develop a strategy to build on current successes and widen reform efforts in the
    Ministry of Education (page 14)

•   Reach an agreement with the Ministry of Education and its partners to provide (a)
    sufficient materials to implement the active teaching and learning model and (b)
    instructions to mentor schools for distributing the materials (page 15)

•   Update its PMP to include performance targets and actual results for current
    performance indicators and delete performance indicators that are no longer
    considered relevant (page 19)

•   Include reporting on its PMP indicators in the next operating plan results report (page
    19)

•   Develop and implement a system to reasonably ensure that reported information is
    accurate (page 22)

In commenting on the draft report, USAID/Nicaragua took issue with what it interpreted
as a mixed message on whether the program achieved planned results. It disagreed
with most of the report recommendations, and it also drew attention to confusion within
USAID over how PMPs relate to the new planning, budgeting, and reporting system
centered around operational plans.

RIG/San Salvador does not agree that the report presents a mixed message on whether
the program achieved planned results. The report says that, where information was
available and where USAID-financed activities significantly influenced results, planned
results generally were met. For higher level results, the relationship between USAID-
financed activities and reported results was less direct. Still, the report concludes that
the program is positioned to achieve potentially transformational results through
nationwide implementation of a USAID-developed active teaching and learning
methodology and a USAID-developed primary curriculum. It appears that many of
USAID/Nicaragua’s disagreements with the draft report recommendations are due to
misunderstandings over what is being recommended or the periods to which the
recommendations apply. In this final report, RIG/San Salvador has tried to provide
clearer explanations of the recommendations where needed. Also, RIG/San Salvador
deleted one recommendation that appeared in the draft report because information
provided by the mission indicates that it is no longer applicable.

A more detailed evaluation of USAID/Nicaragua’s comments on the draft report is
presented after each finding in the report, and the comments themselves are reproduced
in appendix II.




                                                                                         2
BACKGROUND
Nicaragua, the second-poorest country in the Western Hemisphere, must build human
capital to improve its long-term prospects for human development and economic growth.
However, despite positive trends in student enrollment and completion rates,
Nicaragua’s primary education system continues to face serious challenges with respect
to access and quality.

In Nicaragua, primary education is compulsory and by law is targeted to children aged 6
to 12. In 2007, the Ministry of Education reported an enrollment of 952,964 students in
the country’s 8,580 primary schools. As shown in figure 1, net primary enrollment, or the
percentage of children of official primary school age actually enrolled in primary school,
has increased significantly since 1998. By 2006, nearly 90 percent of students aged 6 to
12 were enrolled in primary school.

Figure 1. Nicaragua: Net Primary Enrollment, 1994–2006


             95


             90


             85
   Percent




                                                                                     Male
                                                                                     Female
             80
                                                                                     Total

             75


             70
                  1994 1995 1996 1997 1998 1999 2000 2001 2002 2003 2004 2005 2006
     Source: World Bank EdStats.



The elimination of all public school fees in 2007 by Nicaragua’s current administration
removed a barrier to enrollment but also eliminated a source of resources, leaving the
Ministry of Education with the full responsibility for funding the public education system.
While not particularly low in comparison to other Latin American countries (figure 2),
Nicaragua’s spending on primary education as a percentage of gross domestic product
(GDP) is below the median for low-income countries. (Public spending on primary
education as a percentage of GDP is the only indicator in the Millennium Challenge
Corporation’s “investing in people” category that Nicaragua does not meet.) There are
also indications that resources are allocated suboptimally within the education sector:
According to Nicaraguan law, 6 percent of the national budget must be spent on
university education. As a result, spending per university student is nearly eight times
spending per primary student.



                                                                                              3
Figure 2. Public Spending on Primary Education as a Percentage of GDP for 18
Latin American and Caribbean Countries, 2005
   Per Capita GDP in 2005 International Dollars

                                                  $14,000

                                                  $12,000

                                                  $10,000
                 (PPP Basis)




                                                   $8,000

                                                   $6,000

                                                   $4,000

                                                   $2,000                           Nicaragua

                                                      $0
                                                        0.0%         1.0%               2.0%               3.0%              4.0%               5.0%             6.0%
                                                                          Public Spending on Primary Education as a Percentage of GDP
                                         Source: Primary education spending - MCC (based on national government statistics); per capita GDP - World Bank World
                                         Development Indicators Online



While Nicaragua’s public spending on primary education as a percentage of GDP is on
par with other Latin American countries, many public schools struggle to provide their
students and teachers with materials, supplies, and even physical infrastructure. Public
school teacher salaries are among the lowest in Central America and are insufficient to
cover the basic goods and services in the “family basket” defined by the Government of
Nicaragua.

Although students enroll in primary school at fairly high rates, most do not receive a
quality education. The application of national standardized tests in 2002 showed that
only 14 percent of children in the third grade were proficient in math, while 8 percent
were proficient in Spanish. In the sixth grade, 1 percent were proficient in math and 5
percent were proficient in Spanish. Preliminary test results from 2006 show little change
in these scores. Compared with students from 16 countries throughout Latin America
and the Caribbean, third- and sixth- grade Nicaraguan students performed significantly
lower than average in standardized tests of both math and reading comprehension,
although it should be noted that they consistently outperformed students from the
Dominican Republic and Guatemala, both countries with higher per capita incomes than
Nicaragua.

Grade repetition is a serious issue in Nicaragua, reflecting low educational quality. Each
year, tens of thousands of students repeat grades, absorbing scarce resources within
the primary education system. As shown in figure 3, recent years have seen a moderate
decline in primary school repetition rates, but the rate of grade repetition is still close to
10 percent.




                                                                                                                                                                        4
Figure 3. Nicaragua: Primary School Repetition Rates, 1998-2006


               14

               12

               10

                8
     Percent




                                                                                       Male
                6                                                                      Female
                                                                                       Total
                4

                2

                0
                     1998   1999   2000   2001    2002   2003   2004   2005   2006
     Source: World Bank EdStats.



Considering the challenges facing students in Nicaragua, many ultimately decide to
leave school before completing their primary education. Although, as shown in figure 4,
the gross primary school completion rate 1 has been steadily trending upward, this rate
had only reached slightly over 70 percent by 2006.

Figure 4. Nicaragua: Gross Primary Completion Rates, 1994-2006


               90

               80

               70

               60
     Percent




               50                                                                      Male
               40                                                                      Female

               30
                                                                                       Total

               20

               10

                0
                    1994 1995 1996 1997 1998 1999 2000 2001 2002 2003 2004 2005 2006

           Source: World Bank EdStats.


1
    The gross primary completion rate is defined as the total number of students completing
    primary school, regardless of age, expressed as a percentage of the population at the
    theoretical age for completing primary school.


                                                                                                5
Average educational attainment is only 5.6 years of schooling. In rural areas, this
average drops to 2.4 years. At the time of the country’s 2005 census, roughly 22
percent of the adult population (15 years or older) was considered illiterate.

USAID/Nicaragua has provided sustained support for quality basic education since the
early 1990s. The program currently reaches more than 2,300 primary schools in 97
percent of Nicaragua’s municipalities. USAID/Nicaragua provides support for primary
education through six agreements:

•   A 4-year, $15 million project managed by American Institute for Research and
    overseen by the Academy for Educational Development, the “Excelencia” project,
    began in fiscal year (FY) 2005 as a complement to two predecessor projects. The
    Excelencia project is designed to improve access to quality basic education in
    primary schools throughout Nicaragua through the promotion of an active teaching,
    skills-based learning pedagogical model that encourages increased parental
    involvement. The project is also validating a new primary curriculum designed under
    the Excelencia and the Nicaraguan Social Sector Reform Support Program
    (PRONICASS) projects.

•   A 4-year, $4 million project, Management Science for Health’s PRONICASS project,
    began in FY 2005 and focuses on improving the health, education, and welfare of
    the Nicaraguan population by supporting the Government of Nicaragua’s efforts to
    improve the quality and delivery of social services nationwide.

•   A 3.5-year, $2 million project, Research Triangle Institute (RTI) International’s
    “Alliances” project, began in FY 2006 and is designed to pursue, negotiate, and
    manage strategic alliances with the private sector and not-for-profit groups that are
    interested in providing resources for the improvement of basic education, primary
    health care, and nutrition services. For every dollar provided by USAID/Nicaragua,
    its alliance partners provide a minimum of $2.

•   A 3-year, $8.3 million continuation of a regional project, the “Center for Excellence in
    Teacher Training” project, is designed to better teachers’ knowledge and
    pedagogical skills in order to improve the quality of reading instruction in the first
    through third early primary grades. Implementation began in FY 2003, and the
    program is managed through the Universidad Pedagógica Nacional de Honduras in
    association with the Escuela Normal Ricardo Morales Aviles in Nicaragua.

•   A 3-year, $1 million project, the Fabretto Children’s Foundation’s project, ended in
    FY 2008. The project assisted vulnerable preschool and primary school children in
    the rural municipality of San José de Cusmapa to improve their health status and
    access to primary school education.

•   A 2-year, $500,000 project managed by RTI, the “Early Grade Reading Assessment”
    project, was signed in FY 2007 and will assess the extent to which early grade
    primary school children in different school settings learn to read with an acceptable
    degree of comprehension and fluency and will raise the visibility of education quality,
    the importance of standards, and USAID basic education programming.




                                                                                          6
As of March 31, 2008, USAID/Nicaragua had obligated $16 million and disbursed $8
million for its basic education activities.

AUDIT OBJECTIVES
As part of its FY 2008 annual plan, RIG/San Salvador carried out an audit of
USAID/Nicaragua’s basic education activities. The audit was designed to answer the
following questions.

•   Did USAID/Nicaragua’s education activities achieve planned results?

•   Did USAID/Nicaragua’s reporting on its education activities provide stakeholders with
    complete and accurate information on the progress of the activities and the results
    achieved?

The audit’s scope and methodology are described in appendix I.




                                                                                       7
AUDIT FINDINGS
Did USAID/Nicaragua’s education activities achieve planned
results?

It was difficult to determine whether USAID/Nicaragua’s education activities achieved
planned results because USAID/Nicaragua did not establish performance targets for 7 of
the 16 indicators in its performance management plan (PMP) and did not obtain or report
on actual results for 9 of the 16 indicators. 2 However, where information was available
and USAID-financed activities significantly influenced the reported results, most
performance targets were met. Moreover, USAID/Nicaragua’s basic education program
is poised to achieve national-level, potentially transformational results:
USAID/Nicaragua and its partners have achieved substantial national coverage for an
active teaching and learning model, and the Minister of Education has announced a
decision to implement this model and a USAID-developed primary curriculum nationwide
over the next 3 years.

Table 1 shows the targeted and actual results for the seven PMP indicators and four
operational plan indicators for which USAID/Nicaragua reported results. The first two
indicators, describing public spending on primary education, help describe the context in
which USAID/Nicaragua’s basic education program operates, even though USAID-
financed activities do not significantly influence the results. The third and fourth
indicators, dealing with primary school enrollment and completion, are influenced by
USAID’s activities, although the relationship is an indirect one. The performance targets
for these indicators were generally met, with the exception of the FY 2007 target for
primary enrollment. A more direct link between USAID-financed activities and the
reported results can be drawn for the remaining indicators. For all but one of these
indicators (the number of schools applying active teaching and learning methods),
performance targets were met or exceeded.

Table 1. Basic Education Indicators and Results for 2006 and 2007

                       Indicator                         2006      2006       2007       2007
                                                        Target    Actual     Target     Actual
    PMP Indicators 3
    Public expenditures on education as a percentage     N/A       1.7%        N/A       2.2%
    of gross domestic product (context indicator)
    Public expenditures on primary education as a        N/A       7.0%        N/A       9.0%
    percentage of national budget (context indicator)
    Net enrollment rate for primary education           88.0%     91.9%       88.5%     86.5%
    Primary education completion rate                    40%      62.3%        41%      66.0%


2
    In its FY 2007 operational plan results report, USAID/Nicaragua reported on another four
    indicators that were not included in the PMP. These indicators focused on outputs rather than
    on higher level results.
3
    USAID/Nicaragua informally revised the targets for several PMP indicators in January 2006 but
    did not update the targets in the PMP. The targets shown in the table represent the targets
    outlined in the latest version of the PMP, dated January 2005.


                                                                                                 8
                       Indicator                        2006      2006       2007      2007
                                                       Target    Actual     Target    Actual
    Number of primary school learners completing        N/A      22,979      N/A      38,020
    primary education in programs sponsored by
    USAID
    Number of schools applying active teaching and     2,100     1,120       2,400     1,762
    learning methods
    Number of schools supported by USAID programs      1,800     4,378       2,100     2,555
    with parents’ councils functioning
    Operational Plan Indicators 4
    Number of administrators and officials trained      N/A       1,709       614      1,901
    Number of learners enrolled in U.S. Government-     N/A     1,380,856   314,430   351,692
    supported primary schools or equivalent non-
    school-based settings
    Number of teachers/educators trained with U.S.      N/A      4,996       1,254     4,234
    Government support
    Number of textbooks and other teaching and          N/A     138,140     11,245    60,920
    learning materials provided with U.S. Government
    assistance

USAID’s efforts, building on predecessor programs that got under way in the early
1990s, have achieved substantial national coverage for an active teaching and learning
model and may be poised to achieve transformational results through nationwide
implementation of the model and a new primary curriculum developed with USAID
assistance:

•     During the audit, the Minister of Education announced a decision to implement a new
      primary curriculum developed with USAID/Nicaragua’s assistance. The curriculum is
      expected to be implemented countrywide from 2009 through 2011.

•     The Excelencia project estimates that its March 2008 coverage of 2,307 schools
      represents 27 percent of Nicaragua’s primary schools and that 44 percent of primary
      school students benefit from program activities. The aprendo, practico, aplico (I
      learn, I practice, I apply) active teaching and learning methodology promoted under
      the program has been validated by school administrators and teachers and is
      expected to be implemented nationwide as part of the Ministry of Education’s
      educational management model. Teachers and school administrators told the
      auditors that they have seen gains in student motivation and academic achievement
      through the application of this methodology. Because of this, despite some
      additional effort required to prepare for classes, teachers have expressed
      enthusiasm for the methodology. Higher levels of parental involvement in the school
      and in the classroom have also been reported.

•     The Nicaraguan Social Sector Reform Support Program (PRONICASS) has focused
      on planning exercises (municipal human development plans, educational plans for
      local development, school development plans, annual operational plans for the
      Ministry of Education and the municipalities, and a 10-year educational plan) to
      support the development of a more decentralized and participative management

4
    Operational plan results for 2006 are cumulative from FY 2003. Results for 2007 represent
    results for that year only.



                                                                                               9
    system within the Ministry of Education. PRONICASS also helped develop the new
    primary curriculum before handing off this task to the Excelencia project in 2006.
    PRONICASS staff members have developed a high degree of credibility and access
    within the Ministry of Education.




Sixth-grade students near Cinco Pinos, Nicaragua develop reading comprehension skills using the
aprendo, practico, aplico active teaching methodology. Photo taken by a RIG/San Salvador auditor
on June 18, 2008.

•   Through the Alliances project, USAID/Nicaragua and Research Triangle Institute
    have mobilized $2.4 million in private sector resources to assist the primary
    education system. Given the severe shortage of public resources for primary
    education, demonstration of a vehicle for mobilizing private sector resources is a
    significant accomplishment.




                               A teacher in El Tuma – La Dalia, Nicaragua, helps a student at a
                               white board provided through a private sector alliance established
                               with the assistance of the Alliances project. Photo taken by a
                               RIG/San Salvador auditor on June 10, 2008.




                                                                                              10
•     Teachers trained through the Centers of Excellence for Teacher Training (CETT)
      program report that students learn to read earlier when CETT teaching techniques
      are applied. (Tests administered by a Guatemalan university found significant
      differences between CETT and non-CETT schools in first-grade reading proficiency,
      although no significant differences were found in grades two and three.)

While USAID/Nicaragua’s basic education program has made progress in several
important areas, management actions by USAID/Nicaragua are needed to help resolve
several issues. These issues are discussed in the following sections.

A Strategy for Evaluating the Effectiveness of the
Active Learning Model and New Curriculum Is Needed
Summary: Impact evaluations help quantify the effects of different types of interventions
on educational outcomes. They provide valuable information for current and future
program managers who need to allocate resources where they will do the most good.
No decisions have yet been made on how to evaluate the impact of a USAID-supported
active teaching and learning model or a new USAID-financed primary school curriculum,
mainly because the decision to implement the model and the curriculum nationwide was
announced very recently. A rigorous evaluation approach is needed to measure the
effects of these interventions on educational outcomes.

Developing countries and donors spend hundreds of millions of dollars each year to
improve education, but there is surprisingly little reliable evidence concerning the
effectiveness of alternative educational interventions. That is, there is a widely shared
desire to improve education, but relatively little guidance on how to choose among the
many possible interventions that have a plausible relationship with educational
outcomes. Rigorous impact evaluations can help provide this information, and some
authorities, including the Office of Management and Budget, advocate the use of
randomized evaluations as being particularly well suited to measuring the impact of
education and other programs. 5 These recommendations are consistent with Section
IV.E of USAID’s policy paper “Program Focus Within Basic Education,” which states that
USAID missions “should encourage host countries to adopt appropriate methods for
assessing student learning, and to make routine and systematic use of the results in
educational decision-making.”

Under the current Excelencia project and two predecessor projects dating back to the
early 1990s, USAID has supported development of an active teaching and learning
model that is now used in about 2,040 of 8,580 public primary schools. A series of
evaluations conducted under a predecessor project indicated that the model produced
markedly higher student retention and completion rates. For example, in 2004, the fifth-
grade completion rate in model schools, for students beginning school in 2000, was 72
percent versus 50 percent for other schools. These results can be taken as indirect
evidence of improved educational quality, since it stands to reason that students stay in
5
    In educational settings, opportunities to conduct randomized evaluations arise because it is
    often impractical to simultaneously implement an innovation or intervention in every school in a
    country. If the schools that receive the intervention in a given year are selected randomly, and
    a sufficient number of schools are sampled, many possible sources of bias are eliminated and it
    is possible to rigorously measure differences in educational outcomes (usually, cognitive skills
    measured by standardized tests) between treatment and control groups.


                                                                                                 11
school longer when parents and students see better results. Given that this model          is
about to be implemented nationwide in Nicaragua, though, it would be desirable             to
quantify the effect of the model on cognitive skills by administering standardized tests   to
students in schools that use the active teaching and learning model as well as             to
students in a control group.

Under the PRONICASS and Excelencia projects, USAID financed the development and
validation of a new primary school curriculum beginning in 2004. Given the Minister of
Education’s recent decision to implement the new curriculum nationwide over the next 3
years, it would be prudent to test the new curriculum to see if it produces better
educational outcomes than the current curriculum.

No decisions have yet been made on how to evaluate the impact of the active learning
model and new curriculum to be implemented nationwide. In November 2007, the
Excelencia project administered math and reading comprehension tests to third-grade
students in 62 schools, 16 of which had not participated in any Excelencia activities.
The audit team did not see a detailed analysis of the results, but the tests do not appear
to reveal obvious differences in student performance.

USAID/Nicaragua officials noted that both the active teaching and learning model and
the new curriculum have been piloted in many different settings over many years.
However, interventions that have a plausible relationship with educational outcomes do
not always have a demonstrable effect on outcomes as measured by test scores, and
given the extremely limited resources available to improve access and educational
quality in Nicaragua, there is a need to direct resources to interventions that will have the
greatest positive effects.

The main reason why no decisions on evaluation approaches have been made is that
the Minister only recently decided to implement the model and the new curriculum
nationwide. The decision was announced in June 2008, at the beginning of the audit.

Without a careful evaluation approach, it will be difficult to measure the impact of the
active teaching and learning model or the new curriculum or compare their impact to that
of other possible interventions.

   Recommendation No. 1: We recommend that USAID/Nicaragua, in conjunction
   with its partners, develop a plan for testing the impact of the active teaching and
   learning model and the new curriculum. As part of this plan, the possibility of
   conducting randomized trials should be considered.

Evaluation of Management Comments – In its comments on the draft report,
USAID/Nicaragua disagreed with recommendation no. 1 on the basis that the mission
cannot assume responsibility for any actions beyond the end of the current program in
September 2009. To clarify the intention of the recommendation, it should be reiterated
that nationwide implementation of the aprendo, practico, aplico active teaching and
learning model, together with nationwide implementation of the new primary curriculum
developed with USAID support, will have a potentially transformational effect on primary
education quality in Nicaragua. There is fairly substantial anecdotal evidence of the
positive effects of these two innovations, but neither has been rigorously validated by
examining its effects on test scores for a large sample of students while controlling for
other factors that might influence scores. Given the great expense involved in national


                                                                                           12
implementation of the new educational model and new curriculum, and given the
potentially far-reaching effects they will have on the quality of primary education in
Nicaragua, rigorous testing is needed. Ideally, this would be accomplished during the
current program, but if not, it is critically important that it be accomplished during the
follow-on basic education program. It would be ideal if USAID resources were available
to accomplish testing, but if not, USAID/Nicaragua needs to use its influence with the
Government of Nicaragua and other donors to bring other resources to bear.

To put this specific issue in a larger context, USAID has been challenged in recent years
to refocus its efforts on transformational development and achieving results at scale.
Accomplishing higher level, transformational results will often mean that USAID must
leverage its own resources by influencing the actions of host governments and other
donors. Fortunately, in Nicaragua, USAID has enormous influence, which it has
acquired as a result of the expertise demonstrated by its cognizant technical officer and
its partners, as well as successes achieved under its current and past basic education
programs. There is very little doubt that USAID/Nicaragua can undertake, or influence
its partners to undertake, rigorous testing of the active teaching and learning model and
the new curriculum if it thinks it is important to do so.

Opportunities Exist to Widen the Reform
Agenda at the Ministry of Education
Summary: USAID policy supports a systemic reform perspective for improving basic
education. If some necessary reforms are not addressed, whether due to a lack of
resources, a lack of political will, or some other cause, then the impact of the reforms
that are undertaken will be blunted. To date, USAID-financed institutional reform efforts
in the Ministry of Education have focused on planning processes, but other reform needs
have not been addressed. This situation has arisen because USAID and PRONICASS
staff do not want to get too far out in front of the Ministry of Education, which is hosting
PRONICASS. However, unless wider reforms are undertaken, it is doubtful that
USAID’s education program will produce the types of transformational results it has the
potential to achieve.

USAID policy and regional and USAID/Nicaragua’s country plan both describe systemic
policy reform as a key to improving the performance of educational systems. USAID’s
policy paper “Program Focus Within Basic Education” discusses the importance of policy
reform and a systemic reform perspective, and USAID/Nicaragua’s 2003 country plan in
support of USAID’s regional strategy envisioned a “broad-based revision of systems
which fail to protect adequately against corruption and inefficient management.” The
country plan also indicated that USAID would help the Ministry of Education “ensure that
resources are having the greatest effective impact for quality education.”

Efforts by PRONICASS to help strengthen administration and management have
focused on developing a participative, decentralized educational planning system, a
relatively uncontroversial reform, while other more difficult but important reforms are still
pending. According to the Millennium Challenge Corporation’s FY 2008 scorecard,
Nicaragua’s level of public spending on primary education is below the median level for
low-income countries. The allocation of resources needs to be improved as well: While
average educational attainment is only 5.6 years, public spending per university student
is nearly eight times spending per primary student. However, because the Ministry of


                                                                                          13
Education does not prepare financial statements, it is difficult to assess either the level
or allocation of education spending. Moreover, the Ministry of Education does not
publish statistics on the performance of the educational system, such as enrollment,
repetition, and completion rates.

The Ministry of Education decided that PRONICASS should focus on planning tasks.
While PRONICASS can influence the reform agenda, it certainly is not in a position to
dictate the agenda. Indeed, it would be easy to undermine the credibility that
PRONICASS has developed within the Ministry of Education through heavy-handed
attempts at policy “dialogue.”

In terms of sequencing, better planning processes are logically one of the first reforms
undertaken, and ROIG/San Salvador does not take issue with the decision to focus first
on planning issues. However, widening reform efforts is of particular importance now
that USAID is poised to achieve potentially transformational change through
implementation of an active teaching and learning model and a new primary curriculum
countrywide. Unless reform efforts are widened, it is hard to be confident that the
current generation of children will have the types of educational opportunities that will
build a basis for stronger long-term economic growth and human development.

   Recommendation No. 2: We recommend that USAID/Nicaragua, in conjunction
   with its partners, develop a strategy to build on PRONICASS’ successes and
   widen reform efforts in the Ministry of Education.

Evaluation of Management Comments – In commenting on the draft audit report,
USAID/Nicaragua stated that it would consider recommendation no. 2 when it develops
its new strategy, but it did not commit itself to implement the recommendation or provide
a timeframe for doing so. Achieving the potentially transformational results discussed
previously will require that all the necessary and sufficient preconditions in the Ministry of
Education be present, which in turn will require sustained effort by USAID/Nicaragua and
its partners.

Excelencia Schools Lack Sufficient
Materials to Effectively Implement the
Active Teaching and Learning Methodology
Summary: The success of the Excelencia project’s aprendo, practico, aplico active
teaching and learning methodology depends on the integration of each of its essential
elements, including the issuance of teacher manuals, student workbooks, and
instructional materials. These and other materials are distributed to the project’s mentor
schools and then divided among a number of satellite schools. However, both mentor
and satellite schools report that they do not receive enough materials to effectively
implement the active teaching methodology. As more schools join the project’s network,
it becomes increasingly difficult to provide enough materials to meet the needs of each
school. Furthermore, mentor schools are not given clear guidance on how to allocate
these materials between themselves and the other schools in their networks. Without
sufficient materials, teachers cannot fully implement the active teaching and learning
methodology promoted by the Excelencia project.




                                                                                           14
According to the Excelencia project’s 2003 concept paper, the success of the aprendo,
practico, aplico active teaching and learning methodology depends on the integration of
each of its essential elements. Among these essential elements are teacher manuals,
student workbooks, and other instructional materials.

To implement its aprendo, practico, aplico model, the Excelencia project provides
teacher guides, instructional materials, and classroom supplies to each of the schools in
its network. These materials are delivered to the project’s 286 mentor schools. The
mentor schools’ administrators must then decide how to allocate the materials among
the mentor school and its satellite schools. However, during visits to 14 Excelencia
schools, the audit team noted an inequitable distribution of materials. For example, the
administrator of one mentor school stated that 50 percent of the materials received
remained with the mentor school while the other 50 percent were divided among six
satellite schools. A teacher from a satellite school in a different mentor school network
stated that his school had received no materials from its mentor school.

Despite receiving materials from the Excelencia project, administrators and teachers
from each mentor and satellite school visited reported that they lack sufficient materials
to effectively implement the aprendo, practico, aplico methodology. In 2006, a team
evaluating the validation process of the USAID-supported curriculum noted that students
in Excelencia schools did not have an adequate supply of materials. For example, the
evaluation team found instances where three or four students shared the same
workbook.

As more schools enter the Excelencia network and adopt the aprendo, practico, aplico
active teaching and learning methodology, materials must be provided to a growing
number of schools. However, as the project has expanded, the distribution of materials
has not met the needs of the schools. Furthermore, there is no clear guidance on how
materials received by mentor schools should be allocated among the satellite schools.

Instructional materials and supplies play an important role in the aprendo, practico,
aplico methodology. When sufficient materials are not provided, teachers cannot
effectively implement the active teaching and learning methodology. As a result, the
impact of the aprendo, practico, aplico methodology and of the Excelencia project is
lessened.

   Recommendation No. 3: We recommend that USAID/Nicaragua reach an
   agreement with the Ministry of Education and its partners to (a) provide sufficient
   materials to implement the active teaching and learning model and (b) provide
   instructions to mentor schools for distributing the materials.

Evaluation of Management Comments – USAID/Nicaragua disagreed with the first
part of recommendation no. 3 on the basis that it does not have the resources required
for more materials. The mission stated that this need will be met by the World Bank,
which has committed itself to providing $14 million to finance materials to implement the
new USAID-developed primary curriculum. USAID/Nicaragua worked collaboratively
with the World Bank to reach this decision. If the World Bank funding will cover
materials required for the active teaching learning model, then the action described by
the mission will be sufficient to implement this part of the recommendation. The mission
agreed with the second part of the recommendation.



                                                                                         15
Instructional materials and supplies are needed to implement the aprendo, practico, aplico
active teaching and learning methodology. In the left-hand photo above, a display of
words formed from cut-out letters hangs in a first-grade classroom. The right-hand photo
shows materials stocked in a first-grade classroom’s math resource center. Photos taken
by a RIG/San Salvador auditor on June 10 and 17, 2008.


The Alliances Project Should Focus
on Significant, Sustainable Results
Summary: As a development agency, USAID assists programs that will produce
significant, sustainable results. However, for 3 of the 12 private sector alliances related
to education, there was little evidence indicating that the alliances produced significant
or sustainable results. In visits to several schools throughout Nicaragua, some teachers
and school administrators reported that they had neither requested nor expected to
receive assistance, and the assistance received did not address the needs of their
schools. Although the Alliances project established the types of alliances it would like to
form, no guidance was designed that could assist the partners to build sustained
relationships with local schools. Therefore, it is difficult to reconcile some of the
alliances supported with the project’s objective of providing more and better education in
primary schools.

USAID focuses its assistance on programs that produce sustainable results. USAID’s
“Strategy for Sustainable Development” defines development as sustainable when it
permanently enhances the capacity of a country to improve its quality of life. Assistance
provided under this strategy should address the needs of local populations, as they
themselves have defined them. According to this strategy, support for sustainable
development is to be employed in each of USAID’s endeavors.

In field visits to schools receiving assistance through 3 of 12 Alliance basic education
projects, the audit team noted several examples where the assistance provided did not
produce significant, sustainable educational results. Several teachers and school



                                                                                        16
administrators noted that they had neither requested nor expected to receive the
assistance and that the assistance received did not address the needs of their schools.

One alliance partner’s assistance to a rural, multigrade school near San Juan del Sur
consisted of delivering school supplies (e.g., pencils and paper) on a one-time basis.
While praiseworthy as an act of charitable giving, this assistance did not produce
significant, sustainable results.

Another alliance provided computers, books, and materials to several schools in rural
areas of Nicaragua. In visits to three of the five schools receiving assistance, the
school’s administration stated that students were not given access to the computers.
Instead, in two of the schools, the computers were used for administrative tasks, and the
third school does not have electricity. The Nicaraguan history and cultural books
provided by the alliance partner were placed in the schools’ libraries to be used as
reference materials for the teachers; however, one school, which received the books in
August 2006, still had not removed the protective plastic wrapping.

A third alliance provided training and other assistance to schools with children with
disabilities. The director of one beneficiary school stated that it only became involved in
the project when the alliance partner called the school to inform the director that a
multiday training on strategies for teaching children with learning disabilities was to be
held in a nearby restaurant. The director, two students, and one parent attended the
training, but the partner has provided no followup or further assistance to help with the
implementation of the strategies in the school.

The Alliances project was designed to mobilize private sector and not-for-profit
resources to improve basic education in Nicaragua, and it did so successfully. Some
alliance partners may want to contribute resources for education even though they do
not have the project development or management skills and experience needed to
independently develop and manage education projects. In these cases, the Research
Triangle Institute (RTI) may want to pair an alliance partner with another partner that has
complementary skills and experience, or RTI staff may provide project design and
management skills themselves.

The short-term assistance provided through the three alliances discussed above
mobilized private sector and not-for-profit resources that have reached 1,654 schools.
Although only six schools were visited during the audit, in five of these schools, there
was little evidence to link this assistance to significant, sustainable results. The lack of
evidence of sustainable results in five of the six schools visited is an indication that
similar problems may exist in other schools.

Evaluation of Management Comments – USAID/Nicaragua’s comments on the draft
audit report stated that all of the subgrants under this activity have now been awarded.
Accordingly, RIG/San Salvador has deleted a recommendation that appeared in the draft
audit report, which asked the mission to put procedures in place to reasonably ensure
that private sector alliances achieve significant, sustainable results.




                                                                                         17
Did USAID/Nicaragua’s reporting on its education activities
provide stakeholders with complete and accurate information on
the progress of the activities and the results achieved?
USAID/Nicaragua’s reporting provided stakeholders with a balanced view of the
challenges facing the educational system and the impact of the program’s activities;
however, this reporting did not always accurately reflect the progress of its activities and
the results achieved. USAID/Nicaragua reports to its stakeholders primarily through the
standardized reports, such as the operational plan, required by the Agency.

In its FY 2007 operational plan results report, USAID/Nicaragua broadly described the
state of the primary education system, the progress of its activities, and the results
achieved. The report notes that, despite the progress made in recent years, the
educational system in Nicaragua continues to face challenges in the areas of access,
student retention, illiteracy, quality, and lack of resources. The report also described
how, through the mission’s activities, some of these larger issues are being addressed.
In addition to determining the completeness and accuracy of USAID/Nicaragua’s
reporting, the audit team contacted some of USAID’s internal stakeholders. These
stakeholders expressed satisfaction with the mission’s reporting.

While USAID/Nicaragua has provided stakeholders with a complete view of the progress
of its activities and results achieved, this reporting did not always reflect the actual
progress of activities and results achieved. As discussed in the following sections,
USAID/Nicaragua needs to update its performance management plan. Also, at both the
mission and implementing partner levels, inaccuracies in data reporting led
USAID/Nicaragua to give stakeholders information that did not accurately reflect actual
performance.

Performance Management Plan
Should Be Updated
Summary: Rigorous performance measurement is an important part of USAID’s system
of managing for results. While USAID/Nicaragua prepared a PMP for its education
program, the PMP was not updated, and the mission did not accumulate information on
actual results or report on most of the PMP indicators. This occurred because of
confusion over the reporting policies to be followed: for example, when the new
operational plan (OP) process was introduced in 2007, mission staff were unsure
whether they should report on the new OP indicators, the PMP indicators, or both. As a
result, the available information on actual results was not as comprehensive or as
rigorous as was originally envisioned in the PMP.

Developing meaningful performance indicators, systematically gathering performance
information, and communicating information on results achieved or not achieved are
important elements of USAID’s system of performance management for achieving better
results. USAID’s Automated Directives System (ADS) 203.3.3 requires that a PMP be
prepared for each strategic objective. The PMP must include performance indicators
and targets for each strategic objective and intermediate result in the mission strategic
plan. Missions should update PMPs regularly with new performance information as
programs develop and evolve.



                                                                                         18
USAID/Nicaragua prepared a PMP that covered its education program, but the PMP has
not been updated since 2005. No performance targets were established for 7 of the 16
performance indicators for the education program, and the PMP was not updated with
actual results as they became available. Also, three targets were not updated after they
were exceeded in FY 2006. Therefore, they lost their relevance as targets for
performance in subsequent years. (For example, see the targets for “net enrollment
rate” and “primary education completion rate” in table 1.)

In its most recent portfolio review, dated January 2008, the mission reported on six of
the PMP performance indicators. 6 However, no performance targets were included for
two of the indicators, and the performance targets for the other four indicators differed
from the targets established in the PMP.

In its operational plan results report submitted in November 2007, the mission reported
on six performance indicators that were applicable to the education program, but five of
these were common indicators developed by the Department of State’s foreign
assistance bureau. Only 1 of the 16 indicators defined in the PMP–which were the
indicators that the mission had identified as the most important ones for evaluating
progress and impact–was included.

These problems occurred because of confusion over the performance measurement
policies and procedures to be applied to the program. One source of confusion arose
with implementation of the new operational plan reporting process in FY 2007, which
required reporting on a new set of standard performance indicators. In general, the
operational plan indicators focused on outputs, while many of the PMP indicators
focused on higher level results. To some degree, it was unclear to mission staff whether
they should use the new operational plan indicators, the PMP indicators, or both. In
response to a previous audit recommendation, 7 USAID/Nicaragua designated a mission
monitoring and evaluation officer, and during the audit a consultant was working to
strengthen the mission’s performance measurement policies and procedures.

As a result, the available information on the performance of the education program was
not as comprehensive or rigorous as it should have been, making it more difficult for
mission management and stakeholders to make judgments or decisions concerning the
education program’s performance.

     Recommendation No. 4: We recommend that USAID/Nicaragua update its
     performance management plan to include performance targets and actual results
     for the education program’s current performance indicators and delete any
     performance indicators that are no longer considered relevant.

     Recommendation No. 5: We recommend that USAID/Nicaragua include reporting
     on its performance management plan indicators in the next operating plan results
     report.


6
    Table 1 shows reporting on seven PMP indicators. The portfolio review covered six indicators
    and the mission’s operational plan covered one indicator.
7
    See recommendation no. 1 in the Office of Inspector General’s Audit of USAID/Nicaragua’s
    Economic Growth Program (Audit Report No. 1-524-08-001-P dated October 3, 2007).


                                                                                             19
Evaluation of Management Comments – USAID/Nicaragua agreed with
recommendation no. 4 and stated that it would finalize the PMP after the FY 2008
operational plan results report is submitted.

However, the mission disagreed with recommendation no. 5 on the basis that it is
already tracking 11 indicators for the operational plan. The audit team’s view is that the
PMP and the operational plan are complementary. The PMP includes the performance
indicators that a mission considers most appropriate for measuring the success of its
programs, usually focusing on higher level indicators that measure achievement of
intermediate results or strategic objectives. The operational plan, on the other hand,
requires reporting on lower level standard indicators that facilitate aggregation of results
reported by all USAID missions. However, the operational plan permits missions to add
custom indicators: that is, the same indicators that the mission itself uses to manage for
results.   It is important to present information that missions themselves deem
appropriate to stakeholders who use the operational report to make decisions about the
success of USAID programs and the level at which they should be funded. Otherwise,
decisions by stakeholders, which affect the success of mission programs, may be based
on lower level output information that does not reflect important achievements of mission
programs. RIG/San Salvador would like to ask the mission to reconsider whether a
closer alignment of PMP indicators and operational plan indicators would not be
desirable.

Data Reporting Needs to Be Strengthened
Summary: Data reported by USAID and its implementing partners should accurately
reflect a program’s performance and enable management to make appropriate
decisions. However, some data reported by USAID/Nicaragua and/or its implementing
partners did not accurately reflect the basic education program’s performance. Data
reported by implementing partners are not verified by USAID/Nicaragua. Therefore,
some inaccuracies in reporting went unnoticed by USAID/Nicaragua.                  These
inaccuracies were due to some of the basic education program’s implementing partners
relying on second-hand information for the reporting of results, not maintaining an “audit
trail” between reported information and source documents, or relaxing their data
verification procedures. When data are not verified, there is a risk that inaccurate
information will be used to inform or make decisions about a program or its progress.

ADS 203.5.1 requires that performance data meet the five data quality standards of
validity, integrity, precision, reliability, and timeliness. Behind these standards is the idea
that data should accurately reflect the program’s performance and enable management
to make appropriate decisions based on the reported data.

However, some data reported by USAID/Nicaragua and/or its implementing partners did
not accurately reflect actual performance.

USAID/Nicaragua Reporting on CETT – In its FY 2007 results report,
USAID/Nicaragua stated that the CETT program trained 601 teachers and
administrators, thereby benefiting more than 16,000 students in first through third
grades. However, according to CETT’s reported results for 2007, 561 teachers and
administrators were trained, benefiting 14,886 students.




                                                                                            20
In addition, in its FY 2007 operational plan, USAID/Nicaragua reported that 700
administrators and officials were trained from the inception of the CETT project in 2004
through 2006. However, supporting documentation maintained by the CETT project
indicates that only 355 administrators were trained during that period.

USAID/Nicaragua performed data quality assessments for five program performance
indicators for the CETT project. However, it did not verify any of the actual results
reported by its partner.

Reporting by Research Triangle Institute on Alliances Project – RTI has put a lot of
time and effort into tracking and reporting on the status of its alliances through a “project
tracker” spreadsheet, which includes a great deal of valuable information. Nevertheless,
RTI underreported the number of private sector alliances in both 2006 and 2007 and
overreported the cumulative amount of funds leveraged by private sector alliances and
the number of teachers/educators trained in 2007, as shown in table 2.

Table 2. Reporting by Research Triangle Institute

                Indicator                     2006        2006         2007        2007
                                            Reported     Audited     Reported     Audited
 Number of private sector alliances            4           7            18          27
 established (cumulative)
 Amount of funds leveraged from the         331,461      333,304     2,441,380   1,721,269
 private sector in US$ (cumulative)
 Amount of in-kind resources leveraged       30,000      30,000       692,464     702,464
 from the private sector in US$
 (cumulative)
 Number of alliances-supported                 0            0           498         503
 multigrade and regular schools
 Number of teachers/educators trained          0            0           788         628
 with U.S. Government support

RTI did not maintain an “audit trail” showing the source of reported information.
Therefore, it was not always clear how the information was aggregated, making it difficult
to trace reported information back to supporting documentation. Other reporting issues
were caused by RTI management turnover in early 2007 and some cases where results
information was drawn from secondary sources that later turned out to be inaccurate,
such as e-mails, instead of from source documents.

Reporting by the Academy for Educational Development on Excelencia Project –
Five of the 10 results verified for the Excelencia project were underreported or
overreported, as shown in table 3.

Table 3. Reporting by the Academy for Educational Development

                 Indicator                    2006        2006         2007        2007
                                            Reported     Audited     Reported     Audited
 Number of students finishing elementary     29,007      29,007       39,599      39,599
 school (students who finish sixth grade)
 Number of schools applying the active        1,120        1,120       1,762        1,762
 teaching and learning methodology
 Number of administrators and officials       4,038        5,388       1,753        2,245



                                                                                            21
                Indicator                   2006        2006         2007        2007
                                          Reported     Audited     Reported     Audited
 trained
 Number of learners enrolled in            233,857      233,857     334,909     343,414
 U.S.Government-supported primary
 schools or equivalent non-school-based
 settings
 Number of teachers/educators trained       15,487       7,161       3,781       7,030
 with U.S.Government support

The Academy for Educational Development (AED) misreported some results because
(1) a cutoff date 1 month before the end of each quarter was used to allow sufficient time
to verify available data, (2) some people trained were not reported until their personal
and school identification numbers could be verified, a process that sometimes took
weeks or months and contributed to underreporting, and (3) some results were reported
without following AED’s verification procedures, leading to overreporting in some cases.

When data are not verified, a risk exists that decisions made about the progress of the
program will be based on inaccurate information. As shown in the tables above, in
several instances the data reported by implementing partners have not accurately
reflected the project’s results.

   Recommendation No. 6: We recommend that USAID/Nicaragua, in conjunction
   with its partners, develop and implement a system to reasonably ensure that
   reported information is accurate.

Evaluation of Management Comments – USAID/Nicaragua disagreed with this
recommendation on the basis that a system to reasonably ensure the accuracy of
reported information was already in place. However, the mission did outline some steps
to be taken by both its partners and mission staff to improve the accuracy of reporting.
In light of the error rates reported in the above audit finding, RIG/San Salvador cannot
agree that a system to reasonably ensure the accuracy of reported information was
already in place. However, the steps outlined by the mission represent important
improvements. In particular, verifying reported information on a sample basis will be an
important control to help ensure that reported information is accurate.




                                                                                         22
                                                                                APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/San Salvador conducted this performance audit in
accordance with generally accepted Government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. The purpose of the audit was to
determine (1) whether activities under USAID/Nicaragua’s education activities achieved
planned results and assess their impact and (2) whether reporting provided stakeholders
with complete and accurate information on the progress of the activities and the results
achieved.

In planning and performing the audit, we assessed the mission’s controls related to its
education activities. The management controls identified included the mission
performance monitoring plan, mission data quality assessments, cognizant technical
officer (CTO) site visits, program progress reports, day-to-day interaction between
mission staff and program implementers, and the mission’s annual self-assessment of
management controls as required by the Federal Managers Financial Integrity Act of
1982.

The audit covered the education activities under the mission’s third strategic objective,
“Healthier and Better Educated People.” The audit was conducted in Nicaragua from
June 2 to 25, 2008. Our audit focused on education activities performed during fiscal
years (FYs) 2006 and 2007.

Methodology
To answer the audit objectives, we met with CTOs and implementing partners. We
reviewed relevant documentation produced by USAID/Nicaragua such as the mission
performance monitoring plan, the operating plan, award documents, correspondence,
and field visit reports. We also reviewed contractor-prepared documentation such as
monitoring and evaluation plans, annual work plans, and quarterly progress reports.

To assess whether results were achieved, we focused on the six performance indicators
included in the mission’s FY 2005 performance management plan as well as on five
indicators included in the mission’s operating plan results report for FY 2007. We
interviewed implementing partners and a sample of beneficiaries of the schools assisted
by USAID programs. We also reviewed progress reports and visited 28 out of 4,129
field activities (27 schools and one municipal government). In selecting field activities for
visits, we judgmentally selected sites excluding the Atlantic coast region sites (owing to
the lack of roads within the region, it is difficult to access the program’s sites), trying to
cover the most geographical areas possible within the 8 days we allocated for field visits.




                                                                                           23
                                                                            APPENDIX I


For the Excelencia project we visited 14 out of 2,307 schools assisted, for the Alliances
project we visited 6 out of 1,654 schools assisted, for PRONICASS we visited 4 out of 73
sites, and for CETT we visited 4 out of 95 schools where CETT-trained teachers work.

To determine whether accurate and complete information was reported, we interviewed
mission and implementing partner personnel and reviewed documentation to determine
how results are collected for the selected indicators. We validated the reported results
for FY 2006 and FY 2007 by tracing mission-reported results back to the records
maintained at the offices of the implementing partners.




                                                                                      24
                                                                             APPENDIX II



MANAGEMENT COMMENTS
Wednesday, October 29, 2008

To:            Tim Cox, RIG/El Salvador

From:          Carol Horning, Deputy Mission Director USAID/Nicaragua /s/

Subject:       USAID/Nicaragua Response to IG Report on Education Program

USAID/Nicaragua appreciates the work and dedication of the RIG staff in carrying out
this audit, and applauds the fact that they went to many of Nicaragua’s most remote
locations to do their work.

The Mission regrets, however, that the report conveys a mixed message on whether or
not USAID/Nicaragua’s education activities achieved planned results. The emphasis on
PMP targets and data as the principal source of performance data rather then the F-
mandated system of Operational Plan indicators creates an unbalanced representation
of an extremely successful program that, as the IG also notes, will potentially to obtain
national level, transformational results.

USAID as an agency experienced a clash of systems in the 2006/2007 period. Through
2005, USAID used the PMP system of planning and reporting, and beginning in 2006,
switched to a system characterized by two major program exercises and a more
complicated set of data requirements. The new reporting requirements included the use
of all relevant indicators from a set of 647 standard indicators in the new Operational
Plan. USAID/Nicaragua set targets for and reported on more than 130 indicators in the
Operational Plan, including 11 indicators for education. The DQAs alone required 160
staff hours to complete.

The Agency’s revival of PMPs dates from March 2007, coming after a full year of
focusing on the new system and its requirements. There is not sufficient time or human
resources and financial resources to run full PMP and OP Indicator systems. Dirk
Dijkerman, COO/F, used the recent October 3rd Foreign Assistance Bulletin to convey
the message that PMPs are still required, thus there is still confusion in USAID Missions
about this.

The language of the IG report implies that the auditors could not tell whether education
activities achieved planned results. All subsequent positive comments on performance
are thus marginalized. .It would be more accurate to say that the activities produced
planned results, as noted by review of portfolio reviews, project reports, annual reports,
OP reports, and so on, and that there is an Agency-wide gap in reporting PMP results
that should be resolved. USAID/Nicaragua urges the IG to address this serious concern
at the Washington level and rework the introduction to the audit.

Recommendation No. 1: We recommend that USAID/Nicaragua, in conjunction with its
partners, develop a plan for testing the impact of the active teaching and learning model




                                                                                        25
                                                                             APPENDIX II


and the new curriculum. As part of this plan, the possibility of conducting randomized
trials should be considered.

Response:

USAID/Nicaragua does not concur with this recommendation. The current program will
end in September 2009; consequently USAID/Nicaragua cannot assume the
responsibility of more extensive results testing beyond the current scope of the program.

The World Bank, however, is developing a strategy for student assessment under its
education loan. The Mission will share its experience with the testing methodologies
used under Excellencia with the Bank.

Recommendation No. 2: We recommend that USAID/Nicaragua, in conjunction with its
partners, develop a strategy to build on PRONICASS’ successes and widen reform
efforts in the Ministry of Education.

Response:

USAID/Nicaragua disagrees with the timing of this recommendation. The education
program will end in September 2009, and there is no time to do this now. The Mission
will consider this when it develops its 2010 strategy.

Recommendation No. 3: We recommend that USAID/Nicaragua reach an agreement
with the Ministry of Education and its partners to (a) provide sufficient materials to
implement the active teaching and learning model and (b) provide instructions to mentor
schools for distributing the materials.

USAID/Nicaragua disagrees with part (a) of the recommendation but agrees with point
(b).

The education program is ending in September 2009 and the level of funding for
education has been substantially reduced, therefore USAID does not have the resources
to provide more materials. This need will be met by the World Bank, which is providing
$14 million to pay for the materials needed by the GON to implement its new curriculum.
USAID worked collaboratively with the World Bank to achieve this decision.

USAID/Nicaragua can commit, however, to revisiting the plans for distribution of these
materials held by mentor schools for the last year of the project and prioritize schools
that are greatly deprived.

USAID/Nicaragua suggests that the recommendation be revised to say:

We recommend that USAID/Nicaragua and its partners develop a guide for the mentor
schools for distributing materials to neighboring or satellite schools.




                                                                                           26
                                                                             APPENDIX II


Recommendation No. 4: We recommend that USAID/Nicaragua, in conjunction with its
partner, put in place procedures to reasonably ensure that private sector alliances
achieve significant, sustainable results. 8

USAID/Nicaragua disagrees with this recommendation.

The regional program was conceived as providing sub-grants for relatively small
activities to cover “just in time” purchases of materials and/or equipment. Only later did
it evolve to fewer and larger grants that were more directly tied to the Excellencia model
school program. The program did what it was designed to do, and that did not entail
creating long-standing relationships between sub-grantees and schools. The Mission
welcomed the longer-term relationships when they happened, but did not require them
as a condition of the sub-grants.

Second, all of the sub-grants under this activity have been awarded, so there is no
possibility of adjusting the sub-grant criteria for future awards.

In regard to the observations about use of materials in the sub-grants, the Mission has
reviewed oversight practices with Alliances, and as a result, Alliances developed a field
visit tool which it will use to better monitor progress against stated sub-grantee
objectives and to address problems found in the use of supplies/equipment provided
under the activity.

Recommendation No. 5: We recommend that USAID/Nicaragua update its PMP to
include performance targets and actual results for the education program’s current
performance indicators and delete any performance indicators that are no longer
considered relevant.

Response: USAID/Nicaragua agrees with this recommendation. The Mission has
completed an abbreviated draft PMP that covers 2008-2009 and incorporates the
Operational Plan indicators used by the Mission. This PMP will be finalized after the
FY08 Performance Report has been submitted.

Recommendation No. 6: We recommend that USAID/Nicaragua include reporting on
its PMP performance indicators in the next operating plan results report.

Response: USAID/Nicaragua does not agree with this recommendation as it is already
tracking 11 indicators for education in the Operational Plan.

Recommendation No. 7: We recommend that USAID/Nicaragua, in conjunction with its
partners, develop and implement a system to reasonably ensure that reported
information is accurate.

Response:

USAID/Nicaragua disagrees with this recommendation because a system to reasonably
ensure that reported information is accurate is already in place. This system includes


8
    [Recommendation No. 4 was deleted from this final audit report, causing the remaining
    recommendations referenced in the mission’s comments to be renumbered.]


                                                                                        27
                                                                              APPENDIX II


Data Quality Assessments (DQAs), backed up by site visits dedicated to confirming the
information reported by the partners in their quarterly report.

In addition, the Mission has already taken action to improve the quality of data gathering
in its projects. The CETT and EXCELENCIA Projects have developed data bases that
record each indicator from its primary source (each school or each training event) up to
the aggregated form. They track individual trainees by personal ID numbers, and log
their specific training sessions. [This accounts for some of the difference in figures
noted in the audit – i.e., adding up all participants vs. adding up all trainees.] Similarly
RTI will develop and maintain a tracking system for the ALLIANCES project showing
where reported information is drawn from to report out leverage, number of teachers
trained, and number of schools supported. RTI will also use the number code for
schools to ensure completeness rather than the names of schools because many
schools have the same names which causes confusion and leads to possible
undercounting.

For all three projects, USAID/Nicaragua will commit to monitoring the data provided by
the partners in its site visits, as laid out in the Site Visit Mission Order.




                                                                                          28
U.S. Agency for International Development
        Office of Inspector General
       1300 Pennsylvania Ave., NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
